IN THE SUPREME COURT OF THE' UNITED STATES
NO.20-1451

TRACY NIXON
PETITIONER
VS.
GENERAL MOTORS CORPORATION
RESPONDENT

CERTIFICATION OF COUNSEL

TRACY NIXON PETITIONER FILES THIS CERTIFICATION OF COUNSEL PRO SE
SUPREME COURT RULE 44.2
RESTRICTED TO THE

THAT THIS PETITION FOR REHEARING IS

GROUNDS SPECIFIED

AND ARE LIMITED TO THE

INTERVENING CIRCUMSTANCES OF A SUBSTANTIAL OR CONTROLLING
EFFECT OR TO OTHER SUBSTANTIAL GROUNDS NOT PREVIOUSLY PRESENTED.
THE PETITION FOR REHEARING IS PRESENTED IN GOOD FAITH AND NOT FOR
DELAY.

RESPECTFULLY SUBMITTED,

<9
Ui|lS $
I

4<o9-7g> . (

'

Jn\ x
. /^

752/S

IN THE SUPREME COURT OF THE UNITED STATES
NO. 20-1451

TRACY NIXON
PETITIONER
V.

GENERAL MOTORS CORPORATION
RESPONDENT

- .* w

wT

•

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
PETITION FOR REHEARING

TRACY NIXON PRO SE
4415 S, MALCOLM X BLVD
DALAS TEXAS 75215
469-407-1463

TABLE OF CONTENTS

'-TABLE;/OF AUTHORlTT:ESr;;'

i

PETITION FOR REHEARING

titiitiii

PAGE 1

.—f.-

„

-CONCLUSION
TABLE t'-7
APPENDIX A
APPENDIX E
APPENDIX F

* * •••

7

K

* - X

-4-. •
THE STATE OF TEXAS SECRETARY

OF STATE 2020-312826-1

...UNITED STATES COURT OF APPEALS FEDERALCIRCUIT
........... UNITED STATES DISTRICT COURT

• ORDER

EASTERNT DISTRICT ORDER

TABLE OF AUTHORITIES

CASES
CAPITAL BRICK,INC. v. FLEMING Mfg.Co. 722 S.W.2d 399(1996)

CHRISTIANSON V. COLT INDUS.OPERATING
CORP., 486 U.S. 800,809
988

JIM ARNOLD CORP. v. HYDROTECH SYS.,
INC. , 109 f.3d'1567,1578-79..
fed.cir.1997
CO-OWNERS v. PARK WARWICK, L.P • /
244 S.W.3d 838,839 Tex.2008
McCabe
ACT, OF 1979,16 Harv.J.
Legis. 343,364-79 1979
GAYLER v. WILDER;51 U.S.
3 477, 493 1850
STATUTE AND RULES
TEXAS BUSINESS ORGANIZATIONS CODE SECTION 5.251
SUPREME COURT: RULE 44.2
SUPREME COURT RULE 44.1
f.r.c.p. 4e())

f.r.c.p.(a)(h)

TEX.CIV.PRAC. & REM.CODE.17.044(a)
TEX.BUS.CORP.ACT.ART. 8,10
28 U.S.C.G 636 (b)(1)(A)
TEX.CIV.REM.CODE. $ 17.044
28 U.S.C. 1295(a)(1)
28 U.S.C. G 1338
F.R.A.P. 25

PETITION FOR PREHEARING

PURSUANT TO RULE 44.1 OF THIS COURT , PETITIONER TRACY NIXON,
RESPECTFULLY PETITIONS FOR A REHEARING OF THE DENIAL OF A WRIT
OF CERTIORARI TO REVIEW THE JUDGMENT OF THE UNITED STATES r
DISTRICT COURT FOR THE EASTERN DISTRICT OF TEXASJ

THE ORIGINAL PETITION FOR WRIT OF CERTIORARI ASKED THIS COURT TO
RESOLVE FIVE

ISSUES WHETHER THE U.S. DISTRICT COURT JUDGE COMMIT

AN ERROR IN DECISION ADOPTING THE U.S. MAGISTRATE JUDGES ORDER
SIGNED ON JUNE 11,2020 PETITIONER SUBMITTED APPENDIX (F) AS
EVIDENCE., AND ASKS WHETHER APPENDIX (A) RELIED ON AS EVIDENCE
WAS THE RESPONDENT PROPERLY SERVED ACCORDING TO FEDERAL RULES OF
CIVIL PROCEDURE

4(a)(h)., FRCP 4(e)(1)...

WHETHER RESPONDENT GMC REGISTERED AS A FOREIGN CORPORATION IN

TEXAS UPON IT FAILED TO MAINTAIN A REGISTERED AGENT ENTITLE
PETITIONER TO DEFAULT JUDGMENT. WHETHER THE METHOD OF SERVICE ON
RESPONDENT ACCORDING TO APPENDIX (A) WAS IN ACCORDANCE WITH SER­
VICE ON A NONRESIDENT BY THE TEXAS.CIV.PRAC. & REM. CODE.
17.044(a).,
2005 TEXAS BUSINEB CORPORATION ACT ARTICLE 8,10

/

PAGE 1

/
/
/
/
/
/
/

r*'

!

WHETHER THE APPENDIX (A) ALLOW THE FEDERAL COURT TO EXERCISE
PERSONAL JURISDICTION OVER RESPONDENT.
WHETHER ~ AETER CLERKS ENTRY OF DEFAULT JUDGMENT WAS THE COURT
REFUSAL TO ISSUE DEFAULT JUDGMENT A

UNFAIR PREJUDICE TO

THE PETITIONER.

--

IN THE PETITION FOR WRIT OF CERTIORARI PETITIONER ATTACHED APPENDIX(F) TO THE PETITION FOR THE UNITED STATES SUPREME COURT TO
RELY ON APPENDIX(F)IS THE ORDER THAT THE UNITED STATES DISTRICT
COURT FOR THE EASTERN DISTRICT OF TEXAS MARSHALL DIVISION
MAGISTRATE JUDGE

ROY S. PAYNE .'.'SIGNED THAT DENIED ON JUNE 1 1 ,

2020 PETITIONERS REQUEST FOR DEFAULT JUDGMENT AFTER THE UNITED
STATES DISTRICT CLERK ENTRY OF DEFEAULT JUDGMENT .THE ORDER WAS
ADOPTED BY THE UNITED STATES DISTRICT COURT JUDGE.
THE ORDER COMPLAINED OF IS CONTRARY TO THE STANDARDS REQUIRED FOR
IN THE 2005 TEXAS BUSINESS CORPORATION ACT ARTICLE
WHAT THE ORDER ESSENTIALLY SAYS IN REFERENCE IS THAT PLAINTIFF
SEEKS A DEFAULT JUDGMENT PURSUANT TO FEDERAL RULE OF CIVIL PRODURE 55. PLAINTIFF ATTEMPETED TO SERVE GM THROUGH THE TEXAS '
SECRETARY OF STATE: HOWEVER, PLAINTIFF DID NOT SHOW SUBSTITUTED
SERVICE WAS ALLOWED.. AND THAT RULE 4 GOVERNS SERVICE IN FEDERAL
COURTS. A DOMESTIC CORPORATION,LIKE GM,

CAN PROPERLY BE SERVED

IN THE UNITED STATES IN ONE OF TWO WAYS.
END

QUOTE.

THE UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF
TEXAS MARSHALL' DIVISION- JUDGES'"
MOTORS
CORPORATION REGISTRY WITH THE STATE SECRETARY OF TEXAS AS A; ;'
DOMESTIC CORPORATION WHEN THE

SECRETARY OF STATE OF TEXAS '
BUSINESS SECTION .SHOWS IT TO BE REGISTERED AS A ’FOREIGN CORPORATION
DOING BUSINESS IN THE STATE OF TEXAS.
PAGE 2

i
I

}

FEDERAL RULE OF CIVIL: PROCEDURE 4(e)(1) PROVIDES FOR SERVICE IN
THE UNITED STATES

MAY OCCUR BY FOLLOWING STATE LAW FOR SERVING A

SUMMONS IN AN ACTION BROUGHT IN COURTS OF GENERAL JURISDICTION IN
THE STATE WHERE THE DISTRICT COURT IS LOCATED OR WHERE SERVICE IS
MADE.
PETITIONER RELIED ON SERVICE TO THE GENERAL MOTORS CORPORATION
PURSUANT TO

THE 2005 TEXAS BUSINESS CORPORATION ACT ARTICLE 8,10(A)(B)

THAT WAS NOT MODIFIED BY THE TEXAS LEGISLATOR

SENSE ' ' ACTS

1999f-76th Leg., ch. 1481,sec.4 T, ef f,sept,1,1999
AND THE PRIMARY METHOD OF SERVICE OF PROCESS ALLOWED BY THE .
TEXAS BUSINESS ORGANIZATIONS CODE SECTION 5 251
THE ART. 8,10. REQUIRES SERVICE ON FOREIGN CORPORATION BY
(A) THE PRESIDENT AND ALL VICE PRSEIDENTS OF A FOREIGN CORPORA­
TION AUTHORIZED TO TRANSACT BUSINESS IN THIS STATE AND THE
REGISTERED AGENT SO APPOINTED BY A FOREIGN CORPORATION SHALL BE
AGENTS OF SUCH CORPORATION UPON WHOM ANY PROCESS, NOTICE,OR
DEMAND REQUIRED OR PERMITTED BY LAW TO BE SERVED UPON THE CORP­
ORATION MAY BE SERVED.
(BK WHEREVER

A FOREIGN CORPORATION AUTHORIZED TO TRANSACT

BUSINESS IN THIS STATE SHALL FAIL TOP APPOINT OR MAINTAIN A
REGISTERED AGENT IN THIS STATE, OR WHENEVER ANY SUCH REGISTERED
CANNOT WITH REASONABLE DILIGENCE BE FOUND AT THE REGISTERED
OFFICE ,OR WHENEVER THE CERTIFICATE OF AUTHORITY OF A FOREIGN
CORPORATION SHALL BE REVOKED,THEN THE SECRETARY OF STATE SHALL
BE AN AGENT OF SUCH CORPORATION UPON WHOM ANY SUCH PROCESS,.
NOTICE,OR DEMAND MAY BE SERVED.SERVICE ON THE SECRETARY OF
STATE OF ANY SUCH PROCESS, NOTICE,OR DEMAND SHALL BE MADE BY
PAGE 3

DELIVERING TO AND LEAVING WITH HIM,OR WITH ASSISTANT
SECRETARY
OF STATE,OR WITH ANY CLERK HAVING CHARGE OF THE CORPORATION
DEPARTMENT OFFICE, DUPLICATE COPIES OF SUCH PROCESS,NOTICE,OR
DEMAND. IN THE EVENT ANY SUCH PROCESS,NOTICE OR DEMAND IS
SERVED ON THE SECRETARY OF STATE,HE SHALL IMMEDIATELY
CAUSE ONE
OF SUCH COPIES THEROF TO BE FORWARDED BY REGISTERED MAIL
f ■

ADRESSED TO THE CORPORATION AT ITS PRINCIPLE OFFICE ;"
IN THE STATE OR COUNTRY
UNDER THE LAWS OF WHICH IT IS INCORBORATED.ANY SERVICE SO HAD ON THE SECRETARY OF STATE SHALL BE
RETURNABLE IN NOT LESS THAN THIRTY DAYS.
THE PETITIONER FURTHER ASSERTS THAT HE FOLLWED BY THE PROPER
METHOD OF SUBSTITUTED SERVICE ACCORDING TO THE TEXAS CIVIL
PRACTICE ^ND REMEDIES CODE zG 17.044 SUBSTITUTED SERVICE
ON
SECRETARY OF STATE (a) THE SECRETARY OF STATE IS AN AGENT FOR
SERVICE OF PROCESS OR COMPLAINT ON A NONRESIDENT WHO:
(1) IS REQUIRED BY STATUTE TO DESIGNATE OR MAINTAIN A RESIDENT
AGENT OR ENGAGES IN.BUSINESS IN THIS STATE, BUT HAS NOT DESIGANATgQ OR MAINTAINED A RESIDENT AGENT FOR SERVICE OF PROCESS;
ATTACHED TO THE PETITION FOR WRIT OF CERTIORARI IS APPENDIX(A)
A TRUE AND CORRECT COPY OF THE STATE rOFT-'TEXAS - SECRETARY
OF
STATE 2020-312826-1 OF THE PROPER METHOD OF SERVICE THAT
ENTITLED THE PETITIONER TO A DEFAULT JUDGMENT AND HEARING
FOR UNLIQUIDATED DAMAGES.
THE PETITIONER FILED NOTICE OF APPEAL FROM THE UNTTED^BTATES
DISTRICT COURT MAGISTRATE JUDGES RECOMMENDATION IN THE ACCORDANCE WITH 28 U.S.C. 5 636 THE UNITED STATES MAGISTRATE
JUDGE
WAS DESIGNATED BY THE DISTRICT COURT JUDGE TO HEAR AND DETERMINE PROCEDURAL OR DISCOVERY MOTIONS OR OTHER PRETRIAL MATTERS.
PENDING IN THE CIVIL SUIT

OTHER THAN THOSE SPECIFICALLY

ENUMERATED AS AN EXCEPTION IN 28 U.S.C. G 636(b)(1)(A)
INCLUDING,BUT NOT LIMITED TO THE FOLLOWING
PAGE 4

V*\ *

•;

(1) TO CONDUCT PRELIMINARY AND FINAL PRETRIAL CONFERENCES.
(2)TO CONDUCT STATUS CALLS AND SETTLEMENT CONFERENCES.
(3)TO MODIFY A PRE TRIAL ORDER.
(4)TO SUPERVISE THE CIVIL CALENAR AND HEAR AND DETERMINE MOTIONS
TO.'POSTPONE OR EXPEDITE THE TRIAL OF A CASE.
(5) TO DISMISS A COMPLAINT WITH LEAVE TO AMEND;
(6)
(7)
(8)
(9)

TO
TO
TO
TO

DENY A MOTION TO DISMISS A COMPLAINT.
ISSUE ORDERS REGARDING DISCOVERY MOTIONS.
SEVER OR TO CONSOLIDATE AN ACTION.
SET ASIDE DEFAULT JUDGMENTS.

ATTACHED TO THE PETITION FOR WRIT OF CERTIORARI IS APPENDIX(E)
OF THE UNITED STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT
PER CURIAM ORDER

THE FEDERAL CIRCUIT HOLDING IS THAT THE ‘

JURISDICTION EXTENDS TO CASES IN WHICH A WELL-PLEADED COMPLAINT
ESTABLISHES EITHER THAT FEDERAL PATENT LAW CREATES THE CAUSE OF
ACTION OR THAT THE PLAINTIFFS RIGHT TO RELIEF NECESSARILY DEPENDS
ON RESOLUTION OF A SUBSTANTIAL QUESTION OF FEDERAL PATENT LAW.
CHRISTIANSON v. COLT INDUS. OPERATING CORP., 486 U.S. 800,809
(1988); 28 U.S.C. § 1338;28 U.S..C G 1295(a)(1)
THE CIRCUIT COURT RELIED ITS OPINION ON THE FACT THAT IT HAS BEEN
LONG HELD’ THAT NO SUIT CAN BE MAINTAINED BY THE INVENTOR AGAINST
ANY ONE FOR USING
CITING GAYLER v.

THE INVENTION BEFORE THE PATENT

IS ISSUED.

WILDER, 51 U.S. 477, 493(1850)

AND THUS STATING THAT, ALTHOUGH THE COMPLAINT PURPORTS TO ALLEGE
INFRINGMENT, IT FAILS TO PRESENT A NON-FRIVOLOUS CLAIM ARISING
UNDER THE PATENT LAWS AND IS HENCE OUTSIDE OF THE COURTS
LIMITED JURISDICTION. Cf. Jim ARNOLD CORP. v. HYDROTECH SYS •
INC., 109 F.3d 1567,1578-79(Fed.Cir.1997)

t

PETITIONER WILL ASSERT THAT THE COPYRIGHT PROTECT.

PHOTOGRAPHIC
WORKS OF THE INFRINGEMENT RESPONDENT DUPLICATED ACCORDING TO
TITLE 17 OF THE UNITED STATES CODE SECTION 102 AS MERIT T€h ■THE
CLAIMS AGAINST RESPONDENT IN BODY OF THE CIVIL COMPLAINT.
PAGE

5.

THE FEDERAL CIRCUIT ORDER IS FUNDAMENTALLY INCONSISTANT WITH THE
ISSUES PRESENTED TO IT ON APPEAL FROM THE UNITED STATES DISTRICT
COURT ORDER AND- THE PRIMARY ISSUES PETITIONER PRESENTED
IN THE BRIEF ON APPEAL AND CONTRARY TO LAW. SEE, FEDERAL RULES OF
APPELLATE PROCEDURES 25 (b) JURISDICTION OF APPELLATE COURT.
THE FILING OF NOTICE OF APPEAL BY ANY PARTY INVOKES THE APPELLATE
COURTS JURISDICTION OVER ALL PARTIES TO THE! TRIAL-COURTS
JURISDICTION OVER ALL PARTIES TO THE TRIAL COURTS ^JUDGMENT OR
ORDER APPEALED FROM. ANY PARTIES FAILURE TO * TAKEuANY OTHER STEP
REQUIRED BY THESE RULES r r INCLUDING THE FAILURE OF ANOTHER PARTY
TO PERFECT AN APPEAL UNDER (c) DOES NOT DEPRIVE THE APPELLATE
COURT OF JURISDICTION BUT IS GROUND ONLY FOR APPELLATE COURT TO
ACT APPROPRIATELY,INCLUDING DISMISSING THE APPEAL.
THE FEDERAL CIRCUIT COURT OF APPEALS ERRED IN NOT ADDRESSING
THE MERITS OF THE APPEAL AND INVOKING THE APPEALLATE COURTS
JURISDICTION SEE, WARWICK TOWERS COUNCIL OF CO-OWNERS V. PARK
WARWICK, L.P., 244 S.W.3J 838, , 839 (TEX.2008)
THE ORDER PETITIONER APPEALED FROM WAS PROCEDURAL FROM THE
OBJECTION!;TO THE UNITED STATES MAGISTRATE JUDGES RECOMMENDA­
TION THAT WAS ADOPTED BY THE UNITED STATES DISTRICT COURT JUDGE
THE PETITIONER FILED APPEAL IN ACCORDANCE WITH 28 U.S.C.S 636
(c)(3) AN APPEAL FROM A JUDGMENT ENTERED AT A MAGISTRATE JUDGES
DIRECTION -MAY BE TAKEN TO THE COURT OF APPEALS AS WOULD ANY
OTHER APPEAL FROM A DISTRICT-COURT JUDGMENT. SEE, McCabe,
THE FEDERAL MAGISTRATE
ACT, OF 1979,' 16 HarvcJ. Legis.
343,364-79 (1979) IN ORDER TO ECEXERCISE THIS JURISDICTION
A MAGISTRATE MUST BE SPECIFICALLY DESIGNATED UNDER 28 U.S.C.S 636
(c)(1) PY-THE DISTRICT COURT HE SERVES.

PAGE 6

t

CONCLUSION

FOR THESE REASONS SET FORTH IN THIS PETITION, TRACY NIXON RESPEC­
TFULLY REQUESTS THIS HONORABLE COURT GRANT

REHEARING AND

HIS

PETITION FOR WRIT OF CERTIORARI.

RESPECTFULLY SUBMITTED,
/'

t

TRACY NIXON PRO SE
4415 S,MALCOLM X BLVD DAL
DALLAS TEXAS 75215
469-407-1468

CERTIFICATE OF SERVICE
I HEREBY CERTIFY THAT A TRUE COPY WAS SERVED ON RESPONDENT
AT RESPONDENT LAST KNOWN ADDRESS BY U.S. POSTAL SERVICE
ON

9/S

J

2021 .

PAGE 75

The Stale of Texas
Secretary of State
. 2020-312826-1

I, the undersigned, as Secretary of State of the State of Texas, DO HEREBY CERTIFY
that according to the records of this office, a copy of the Summons in a Civil Action and
General Complaint in the cause styled:
Tracy Nixon vs General Motors Corporation
United States District Court, Eastern District of Texas, Marshall Di vision
Cause No: 219CV002&7JRG
was received by this office on December 23,<, 2019, and that a copy was forwarded on
January 6, 2020, by CERTIFIED MAIL, return receipt requested to:
General Motors Corporation
Global Headquarters
300 Renaissance Ctr
Detroit, MI 48243
As of this date, no response has been received in this office.

Date issued: March 11,2020

Ruth R. Hughs
Secretary of State
GF/mr

Case: 21-1120

Document 9

Page: 1

Filed: 01/21/2Q21

Er
NOTE: This order is nonprecedential.

3Hmteb States: Court of Appeals,
for tfje Jfeberal Circuit
TRACY NIXON,
Plaintiff-Appellant
v.

GENERAL MOTORS CORPORATION,
Defendant-Appellee
2021-1120
Appeal from the United States District Court for the
Eastern District of Texas in No. 2:19-cv-00287-JRG-RSP,
Chief Judge J. Rodney Gilstrap.

ON MOTION
Per Curiam.
ORDER
Tracy Nixon responds to the court’s order to show cause
and moves to “reinstate appeal.”
Mr. Nixon’s underlying complaint alleges that General
Motors Corporation (“GM”) infringed his design “before the
plaintiff could patent the invention for sale to the public.”
Compl. at 4, Nixon v. Gen. Motors Corp., No. 19-cv-00287

Case: 21-1120

2

Document 9

Page: 2

Filed: 01/21/2Q21

NIXON v. GENERAL MOTORS CORPORATION

(E.D. Tex. Aug. 26, 2019), ECF No. 1. Mr. Nixon moved the
district court to enter a default judgment against GM,
which the court denied on the basis that GM was not
properly served. Mr. Nixon filed objections to the order,
which the district court overruled in an order dated August
14, 2020. Mr. Nixon subsequently moved the district court
to certify the August 14th order for interlocutory appeal
pursuant to 28 U.S.C. § 1292(b).
While that motion was pending, Mr. Nixon filed a request for permission to appeal at the United States Court
_ of Appeals for the Fifth Circuit and a separate request
which was docketed at this court as the above-captioned
matter. On November 4, 2020, the Fifth Circuit denied his
request because “[t]he district court’s order denying the
motion for default judgment is not a final order . . . [and]
the order has not been certified for immediate appeal under
28 U.S.C. § 1292(b) by the district court.” Nixon v. Gen.
Motors Corp., No. 20-90032 (5th Cir. Nov. 4, 2020). On De­
cember 1, 2020, the district court denied Mr. Nixon’s motion to certify the order for interlocutory appeal.
Our jurisdiction extends to cases in which a wellpleaded complaint establishes either that federal patent
law creates the cause of action or that the plaintiff’s right
to relief necessarily depends on resolution of a substantial
question of federal patent law. Christianson v. Colt Indus.
Operating Corp., 486 U.S. 800, 809 (1988); 28 U.S.C.
§ 1338; 28 U.S.C. § 1295(a)(1). It has long been held that
“no suit can be maintained by the inventor against any one
for using [the invention] before the patent is issued.”
Gayler u. Wilder, 51 U.S. 477, 493 (1850). Thus, although
the complaint purports to allege infringement, it fails to
present a non-frivolous claim arising under the patent laws
and is hence outside of our limited jurisdiction. Cf. Jim
Arnold Corp. v. Hydrotech Sys., Inc., 109 F.3d 1567, 157879 (Fed. Cir. 1997).

Case 2:19-cv-00287-JRG-RSP Document 14 Filed 06/11/20 Page 1 ot.2 PagelD #: 47

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
MARSHALL DIVISION
Tracy Nixon,
Plaintiff,
v.
General Motors Corporation,
Defendant.

§
§
§
§
§
§

APPELLANT EXHIBIT 2

Case No. 2:19-CV-00287-JRG-RSP

o

$

§
§

ORDER
Before the Court is Plaintiff Tracy Nixon’s Motion for Default Judgment, Dkt. No. 12, and
Motion for Hearing on Motion for Default Judgment, Dkt. No. 13. Plaintiff has not shown that
General Motors Corporation was properly served. Therefore, and after consideration, the Court
denies Plaintiffs Motion for Default Judgment and Motion for Hearing.
Plaintiff seeks a default judgment pursuant to Federal Rule of Civil Procedure 55. Plaintiff
attempted to serve GM through the Texas Secretary of State; however, Plaintiff did not show
substituted service was allowed. Rule 4 governs service in federal courts. A domestic corporation,
like GM, can properly be served in the United States in one of two ways:
(A) in the manner prescribed by Rule 4(e)(1) for serving an individual; or
(B) by delivering a copy of the summons and of the complaint to an officer, a managing or
general agent, or any other agent authorized by appointment or by law to receive service
of process and—if the agent is one authorized by statute and the statute so requires-by also
mailing a copy of each to the defendant.
FED. R. CIV. P. 4(h). Plaintiff has not shown that a copy of the summons and complaint were
delivered to an officer, a managing or general agent, or any other authorized agent of GM.
Rule 4(e)(1) provides that service in the United States may occur by “following state law
for serving a summons in an action brought in courts of general jurisdiction in the state where the
district court is located or where service is made .. ..”

.

Case 2:19-cv-00287-JRG-RSP Document 14 Filed 06/11/20 Page 2 of,2 PagelD #: 48

Texas law generally requires that a nonresident business entity have a registered
agent who may be served in place of the nonresident.1 See Tex. Bus. Orgs. Code Ann. § 5.201;
Tex. Civ. Prac. & Rem. Code Ann. § 17.043. However, substituted service of a complaint, where
the Secretary of State acts as an agent and may be served instead, is allowed if the nonresident:
(1) is required by statute to designate or maintain a resident agent or engages in business
in this state, but has not designated or maintained a resident agent for service of process;
(2) has one or more resident agents for serv ice of process, but two unsuccessful attempts
have been made on different business days to serve each agent; or
(3) is not required to designate an agent for service in this state, but becomes a nonresident
after a cause of action arises in this state but before the cause is matured by suit in a court
of competent jurisdiction.
Tex. Civ. Prac. & Rem. Code Ann. § 17.044(a); see also Tex. Bus. Orgs. Code Ann. § 5.251.
Plaintiff did not show that substituted service through the Texas Secretary of State was
proper through the three methods described above. Therefore, Plaintiff has not shown that GM
was properly served. For these reasons, Plaintiff is not entitled to default judgment and accordingly
Plaintiff s Motion for Default Judgment and Motion for Hearing are DENIED.
SIGNED this 11th day of June, 2020.

ROY S. P,%NE
1
UNITED STATES MAGISTRATE JUDGE

GM is considered a “nonresident” for this subsection. See Tex. Civ. Prac. & Rem. Code Ann. § 17.041.

2

